Case 18-3857, Document 66-1, 11/07/2019, 2700634, Pagel of 5

E'7

18-3857-cv
Hector C Valentin v. City of Rochester, et al.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a summary order filed
on or after January 1, 2007, is permitted and is governed by Federal Rule of Appellate
Procedure 32.1 and this Court’s Local Rule 32.1.1. When citing a summary order in a
document filed with this Court, a party must cite either the Federal Appendix or an
electronic database (with the notation “summary order”). A party citing a summary order
must serve a copy of it on any party not represented by counsel.
At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 7th day of November, two thousand nineteen.
PRESENT:

JOSE A. CABRANES,
Rf.f.na Raggi,
Circuit Judges,
Edward R. Korman,
District Judge.*

Hector L. Valentin
18-3857-cv

Plaintiff-Appellant,
v.
City of Rochester, James Sheppard, David Moore,
Former Chief of Police, Rochester Police Department,
Michael Cotsworth, Rochester Police Department
Officer / Investigator, Dave Mace, Joseph Murphy,
Paul Walther, Blaho, Adorante, Holmes, Hoke,
Former Rochester Police Department Officer, Monroe
County, Monroe County District Attorney's Office,
Michael Green, Monroe County District Attorney,
Howard Rf.t ,tn, Former Monroe Counts- District
Attorney, Daniel Majchrzak, Former Monroe

‘Judge Edward R. Korman, of the United States District Court for the Eastern District of New
York, sitting by designation.
1

Case 18-3857, Document 66-1, 11/07/2019, 2700634, Page2 of 5

County Assistant District Attorney, Patrick
Fierro, Monroe County7 Assistant District Attorney,
John Munro, Monroe County7 Assistant District
Attorney, Wendy Sisca, Monroe County District
Attorney's Office Employtse, Casper Caceci, Monroe
County District Attorney7^ Office Employee, John
Marchioni, Monroe County7 Assistant District Attorney,
Defendants - Cross - Claimants - Cross - Defendants - Appellees.

FOR PLAINTIFF-APPELLANT:

John M. Regan, Jr., Rochester, NY.

FOR COUNTY DEFENDANTS-APPELLEES:

Matthew D. Brown, Senior Deputy
County Attorney for Michael E. Davis,
County Attorney of Monroe County,
Rochester, NY.

FOR CITY DEFENDANTS-APPELLEES:

Christopher S. Noone, Municipal
Attorney for Timothy R. Curtin,
Corporation Counsel of the City of
Rochester, Rochester, NY.

Appeal from an October 25, 2018 judgment of the United States District Court for the
Western District of New York (Charles J. Siragusa, Judge).
UPON DUE CONSIDERATION WHEREOF, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the October 25, 2018 judgment of the District Court be and
hereby is AFFIRMED.
Plaintiff-Appellant Hector L. Valentin (“Valentin” or “Plaintiff’) appeals from a grant of
summary judgment in favor of Defendants-Appellees City of Rochester, Chief of Police James
Sheppard, former Chief of Police David Moore, Rochester Police Department, Investigators
Michael Cotsworth, Dave Mace, Joseph Murphy, Paul Walther, and David Blaho, and Officers
David Adorante, Jeffrey Holmes, and Randy Hoke (jointly, the “City Defendants”), and in favor of
Defendants-Appellees Monroe County, Michael Green, Howard Relin, Daniel Majchrzak, Patrick
Fierro, John Munro, John Marchioni, Wendy Sisca, and Casper Caceci (jointly, the “County
Defendants,” and together with the City Defendants, “Defendants”).1 We assume the parties’
familiarity with the underlying facts, the procedural history of the case, and the issues on appeal.

1 In his reply brief, Valentin concedes that, due to principles of immunity, a majority of the
defendants should be dismissed from the case such that the only remaining defendants are: Officers
2

Case 18-3857, Document 66-1, 11/07/2019, 2700634, Page3 of 5

Valentin atgues that the District Court erred in holding that liability under 42 U.S.C. § 1983
for a violation of the rule of Brady v. Maryland, 373 U.S. 83 (1963), requires a showing of specific
intent by the prosecution to withhold or suppress exculpatory material. Valentin also challenges the
District Court’s decision that Valentin failed to demonstrate that the City Defendants or County
Defendants had an established policy, custom, or practice of suppressing Brady material such that
Valentin could state a § 1983 claim for damages under Monell v. New York City Department ofSocial
Services, 436 U.S. 658 (1978).2
We review a district court’s grant of summary judgment de novo, drawing all factual inferences
in favor of the non-moving party, and will affirm only if there are no genuine disputes of material
fact such that the moving party is entided to judgment as a matter of law. See Mudge v. Zugalla, 939
F.3d 72, 79 (2d Cir. 2019).
We reject Valentin’s contention that the District Court erroneously granted summary
judgment to Defendants as to Valentin’s claims under Monell. That precedent permits a claim against
a municipality for damages under § 1983 only if the municipality had an established policy, practice,
or custom that caused the deprivation of a constitutional right. See Monell, 436 U.S. at 690. The
exchange between the court and Defendant Majchrzak during Valentin’s 2001 state court
proceeding to set aside his conviction does not suggest any unconstitutional policy or practice in the
Monroe County District Attorney’s Office such that Valentin could claim, much less establish,
municipal liability under Monell. See County Defendants’ Br. at 39—40. Nor does Valentin’s own
experience serve as sufficient support on summary judgment that the Monroe County District
Attorney’s Office had a policy, practice, or custom of suppressing Brady material to permit a
colorable Monell claim.3 See Special App’x 44.

Holmes, Sullivan, and Hoke, the City of Rochester, and the County of Monroe. See Plaintiffs Reply
Br. at 3—4.
2 To the extent Valentin claims that he appeals “every part” of the District Court’s order, we
agree with Defendants that Valentin has waived his appeal of those issues not specifically argued in
his appellate papers. See, e.g., Norton v. Sam’s Club, 145 F.3d 114, 117 (2d Cir. 1998); County
Defendants’ Br. at 20—21; City Defendants’ Br. at 14—17.
3 Also unavailing is Valentin’s citation to Drank v. Kelin, 1 F.3d 1317 (2d Cir. 1993). In Drank, a
former employee of the Monroe County District Attorney’s Office alleged that she was terminated
for twice raising Brady compliance concerns during the summer of 1985. See id. at 1319—20. Such
allegations, together with Valentin’s experience over fifteen years later, are not enough to support a
Monell claim against the County. See, e.g., Jones v. Down ofEast Haven, 691 F.3d 72, 85 (2d Cir. 2012)
(concluding that evidence of two to three violations over a period of several years “fell far short of
showing a policy, custom, or usage” for purposes of Monell liability).
3

Case 18-3857, Document 66-1, 11/07/2019, 2700634, Page4 of 5

The Court agrees with Defendants that the District Court correctly concluded that, based on
the full record of this case, Valentin has not shown that the three non-attorney police and
investigators remaining in this appeal violated Brady by failing to disclose the criminal record of a
witness during his criminal proceedings. First, Investigator Sullivan was never made a defendant to
this action, a fact Valentin does not challenge here. See Norton v. Sam’s Club, 145 F.3d 114,117 (2d
Cir. 1998). Second, there is no evidence that Officer Hoke knew of the witness’s criminal record.4
Finally, the evidence pertaining to Officer Holmes indicates only that he spent twenty minutes
assisting in the witness’s prior arrest eight years before Valentin’s trial. No rational trier of fact
could conclude therefrom that Officer Holmes even negligently suppressed material evidence, much
less that he did so intentionally or recklessly. See Darnell v. Pineiro, 849 F.3d 17, 36 (2d Cir. 2017)
(holding § 1983 claims require proof of “mens rea greater than mere negligence”).
As to Valentin’s argument that a civil Brady claim does not require a showing of intentional
misconduct, our precedent has suggested, if not conclusively decided, the contrary. “We have
suggested, though without so concluding, that a civil Brady claim requires a showing that the non­
disclosure was intentional.” Bellamy v. City ofNew York, 914 F.3d 727, 751 n.23 (2d Cir. 2019) (citing,
inter alia, Darnell v. Pineiro, 849 F.3d at 36). Valentin cites no case law in this Circuit holding that
defendants could be liable for money damages under § 1983 for violating Brady, absent intentional
misconduct. We need not pursue the matter because, as noted, Valentin fails plausibly to
demonstrate even negligence by Officer Holmes and concedes in his reply brief that the Monroe
County District Attorney’s Office and its current and former District Attorneys and assistant
District Attorneys should be dismissed from the suit because they are entided to prosecutorial
immunity. The only remaining defendant associated with the prosecution (as opposed to the police
and investigators) is Monroe County. And because we agree with the District Court that Valentin’s
claims do not satisfy Monell as a matter of law, Valentin cannot establish liability against Monroe
County for the alleged Brady misconduct. Accordingly, we express no view on the question of
whether a plaintiff asserting a Bracty violation must show that the conduct was intentional.
Finally, Valentin contends that the District Court erroneously denied his Fed. R. Civ. P.
59(e) motion in which he claimed, in addition to his other arguments in this appeal, that the
prosecution used inconsistent theories to obtain his conviction in violation of his due process rights.
As noted by the District Court, Valentin improperly raised this argument for the first time in his
Rule 59(e) motion for reconsideration. This Circuit will “generally ... not consider an argument on

4 Valentin argues in his reply brief, and in a footnote in his principal brief, that Officer Hoke was
“involved in an effort to coerce and/or intimidate” a different prosecution witness. Plaintiffs Br. at
11 n.3; Plaintiffs Reply Br. at 4. Even assuming this argument were properly before us, but see Ret.
Bd. of the Policemen’s Annuity & Ben. Fund of the City of Chi. v. Bank ofN.Y. Mellon, 775 F.3d 154, 168
(2d Cir. 2014) (holding arguments raised in footnotes may be deemed waived), it fails for lack of any
support in the record.

4

Case 18-3857, Document 66-1, 11/07/2019, 2700634, Page5 of 5

appeal that was raised for the first time below in a motion for reconsideration.” Analytical Surveys, Inc.
v. Tonga Partners, L.P., 684 F.3d 36, 53 (2d Cir. 2012) (internal citation and quotation marks omitted)
(noting that although this rule is “prudential rather than jurisdictional... [we] are more likely to
exercise our discretion to consider an issue not timely raised below when the issue is purely legal and
there is no need for additional fact finding” (alterations omitted) (internal citation and quotation
marks omitted)). We therefore decline to consider Valentin’s due process argument, as it was
impermissibly raised.
CONCLUSION
We have reviewed all of the arguments raised by Valentin on appeal and find them to be
without merit. For the foregoing reasons, we AFFIRM the October 25, 2018 judgment of the
District Court.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

5

Case 18-3857, Document 66-2, 11/07/2019, 2700634, Pagel of 1

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
ROBERT A. KATZMANN

CATHERINE O'HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT

Date: November 07, 2019
Docket#: 18-3857cv
Short Title: Valentin v. City of Rochester

DC Docket#: ll-cv-6238
DC Court: WDNY
(ROCHESTER)
DC Judge: Payson
DC Judge: Siragusa

BILL OF COSTS INSTRUCTIONS

The requirements for filing a bill of costs are set forth in FRAP 39. A form for filing a bill of
costs is on the Court's website.
The bill of costs must:
* be filed within 14 days after the entry of judgment;
* be verified;
* be served on all adversaries;
* not include charges for postage, delivery, service, overtime and the filers edits;
* identify the number of copies which comprise the printer's unit;
* include the printer's bills, which must state the minimum charge per printer's unit for a page, a
cover, foot lines by the line, and an index and table of cases by the page;
* state only the number of necessary copies inserted in enclosed form;
* state actual costs at rates not higher than those generally charged for printing services in New
York, New York; excessive charges are subject to reduction;
* be filed via CM/ECF or if counsel is exempted with the original and two copies.

Case 18-3857, Document 66-3, 11/07/2019, 2700634, Pagel of 1

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
ROBERT A. KATZMANN

CATHERINE O'HAGAN WOLFE

CHIEF JUDGE

CLERK OF COURT

Date: November 07, 2019
Docket#: 18-3857cv
Short Title: Valentin v. City of Rochester

DC Docket#: ll-cv-6238
DC Court: WDNY
(ROCHESTER)
DC Judge: Payson
DC Judge: Siragusa

VERIFIED ITEMIZED BILL OF COSTS

Counsel for
respectfully submits, pursuant to FRAP 39 (c) the within bill of costs and requests the Clerk to
prepare an itemized statement of costs taxed against the
and in favor of
for insertion in the mandate.
Docketing Fee
Costs of printing appendix (necessary copies
Costs of printing brief (necessary copies
Costs of printing reply brief (necessary copies

(VERIFICATION HERE)
Signature

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 1 of 38

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

lb-1

HECTOR L. VALENTIN,
Plaintiff,

DECISION and ORDER

-vs11-CV-6238 CJS
CITY OF ROCHESTER, CHIEF OF POLICE
JAMES SHEPPARD, DAVID MOORE, Former
Chief of Police, ROCHESTER POLICE DEPARTMENT,
MICHAEL COTSWORTH, Rochester Police Department
Officer/Investigator, INVESTIGATOR DAVE MACE,
INVESTIGATOR JOSEPH MURPHY, INVESTIGATOR
PAUL WALTHER, INVESTIGATOR BLAHO, OFFICER
ADORANTE, OFFICER HOLMES, HOKE, Former
Rochester Police Department Officer, MONROE COUNTY,
MONROE COUNTY DISTRICT ATTORNEY’S OFFICE,
MICHAEL GREEN, Monroe County District Attorney,
HOWARD RELIN, Former Monroe County District
Attorney, DANIEL MAJCHRZAK, Former Monroe County
Assistant District Attorney, PATRICK FIERRO, Monroe
County Assistant District Attorney, JOHN MUNRO, Monroe
County Assistant District Attorney, JOHN MARCHIONI,
Monroe County Assistant District Attorney, MS. WENDY
SISCA, Monroe County District Attorney’s Office Employee,
INVESTIGATOR CASPER CACECI, Monroe County
District Attorney’s Office Employee,
Defendants.

INTRODUCTION
Hector Valentin (“Plaintiff”) filed this action under 42 U.S.C. § 1983 and New York
State Law, alleging that Defendants violated his Federal Procedural Due Process rights
and maliciously prosecuted him, resulting in him being improperly convicted of robbery.
Discovery is completed, and now before the Court are the following applications: A motion
for summary judgment (Docket No. [#84]) by the City Defendants; a motion for summary
judgment/motion for judgment on the pleadings [#151] by the County Defendants; a
cross-motion to amend the Complaint [#138] by Plaintiff; and a cross-motion for summary
judgment by Plaintiff [#153].

Plaintiffs motions are denied, Defendants’ motions are
i

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 2 of 38

granted and this action is dismissed.
FACTUAL BACKGROUND
The underlying facts of this case have already been discussed in certain reported
court decisions with which the reader is presumed to be familiar. See, e.g., People v.
Valentin, 1 A.D.3d 982, 767 N.Y.S.2d 343 (1st Dept. 2003) and Valentin v. Mazzuca, No.
05-CV-0298 (VEB), 2011 WL 65759 (W.D.N.Y. Jan. 10, 2011).

Briefly, on February 29,

2000, an armed robbery occurred at Mike’s Stereo Shop in the City of Rochester, New
York (“the Stereo Shop”).

Prior to the robbery, two men were present in the shop -

Terrance McLaurin (“McLaurin”), the store clerk, and John Kemp (“Kemp”), an
acquaintance of McLaurin’s. At approximately 10:30 am, a man entered the shop and
asked McLaurin if he would be interested in purchasing a mixing board.

McLaurin

stated that he might be interested, and the man left the store purportedly to get the
mixing board.

Shortly thereafter, the man returned with the mixing board, accompanied

by a second man, and one of the two men pointed a handgun at McLaurin’s head and
demanded cash and stereo equipment. The two men then retreated from the shop with
cash and merchandise, and drove away in a maroon-colored Pontiac Grand Am
automobile.

It is undisputed that Plaintiff was the “second man” who entered the

Stereo Shop that morning, and that he possessed and operated the maroon-colored
Pontiac Grand Am at all relevant times.
Members of the Rochester Police Department (“RPD") investigated the robbery.
During a line-up identification procedure, McLaurin identified Jose Arroyo (“Arroyo”) as

2

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 3 of 38

the first robber, who entered the store, then left, and returned with Plaintiff.1

McLaurin

also testified before the Grand Jury that Arroyo was the person who pointed a gun at his
head during the robbery.2 McLaurin was “adamant that the second individual, Hector
Valentin, did not have a gun.”3 John Kemp, who, as previously mentioned was also in
the shop at the time of the robbery, also identified Arroyo as one of the robbers.
Additionally, Plaintiffs girlfriend at the time of the robbery, Sarah Bower (“Bower”), told
the police that Plaintiff admitted to her that he had robbed the stereo shop. And finally,
Plaintiff waived his Miranda rights and gave a statement to the police, in which he
admitted driving Arroyo to and from the stereo shop, and to being present in the stereo
shop during the robbery, though he denied knowing beforehand that Arroyo intended to
commit the robbery.
Arroyo and Plaintiff were indicted separately for robbery.

Plaintiff was indicted

for Robbery in the First Degree (Penal Law § 160.14[4]) and Robbery in the Second
Degree (Penal Law § 160.10[1]).

However, the case against Arroyo was dismissed

after McLaurin failed to cooperate with prosecutors, and after the Court suppressed
Kemp’s identification of Arroyo.

In a written decision finding that Kemp had no

independent basis to identify Arroyo, the New York State Supreme Court, Monroe
County, indicated that Kemp was not a reliable witness.

In particular, the court found

that Kemp was unable to give a reasonably accurate or consistent account of what had
occurred during the robbery, and that he probably should not be sworn to testify at trial.4

1
2
3
4

Docket No. [#1-1] at pp. 9-10.
Docket No. [#1-1] at p. 13.
Docket No. [#1-1] at pp. 32-33.
See, Valentin v. Mazzuca, 2011 WL 65759 at *2 (The Court found that Kemp “could not describe what
3

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 4 of 38

Despite the dismissal of the case against Arroyo, the case against Plaintiff
progressed toward trial.

The prosecution articulated the view that Plaintiff was Arroyo’s

accomplice, and that he could be found guilty under the aforementioned robbery
statutes regardless of whether he possessed the gun during the robbery.
During pretrial discovery, Plaintiffs defense attorney made a general request for
Brady material, but did not specifically request information concerning the criminal
history of any witness. A few days before Plaintiffs trial, his former girlfriend, Bower,
was charged with petit larceny, for stealing money from her employer, and a warrant
was issued for her arrest.

While members of the RPD were attempting to locate Bower

in connection with the petit larceny charge, members of the Monroe County DA’s Office
were also attempting to locate her, in order to secure her presence at Plaintiffs trial.
Investigators for the DA’s Office managed to locate Bower, and she testified at trial, at
which time she still had not yet been arrested or arraigned on the petit larceny charge.
At trial, the People’s case consisted primarily of testimony from Kemp about the
robbery, testimony from Bower regarding Plaintiffs admissions to her, and testimony
from two RPD investigators, Investigator Michael Cotsworth (“Cotsworth”) and
Investigator David Mace (“Mace”), concerning Plaintiffs statement to them about the
robbery.
McLaurin was residing in the Bahamas and was unavailable to testify at trial.
The prosecutor, ADA Daniel Majchrzak (“Majchrzak”), moved to have McLaurin’s

happened at the site of the robbery with any consistency, and the court had little or no confidence in his
reliability as a witness. The witness [Kemp] testified as to suffering a blackout because of the stress of
the moment and described a previous serious brain injury that he had suffered in a fall.”).
4

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 5 of 38

testimony from a preliminary hearing admitted at trial, but the trial court denied the
application.
During Kemp’s testimony, he surprisingly stated that Plaintiff had possessed the
gun during the robbery, which was contrary to McLaurin’s testimony in the grand jury
and at the preliminary hearing.

It is undisputed that Plaintiffs defense attorney

“severely impeached” Kemp.5
As for Bower, she testified that on the day of the robbery, Plaintiff picked her up
from work while driving the maroon Grand Am, and told her that he had robbed the
Stereo Shop earlier that day.6 According to Bower, the Grand Am was “filled with
various pieces of car stereo equipment,” though it is unclear whether the prosecution
ever showed that such equipment had been taken from the Stereo Shop.7

Bower

further testified that about a week after the robbery, Plaintiff again referenced his
involvement in the robbery.

Specifically, Bower testified that while she was

transporting Plaintiff in her car, he told her not to park in the plaza containing the Stereo
Shop, because he feared that someone in the shop might recognize him from the
robbery. 8
As for Investigators Cotsworth and Mace, they testified that during their interview
of Plaintiff, he initially denied knowing anything about the robbery, but eventually
admitted that he was present during the crime, though he claimed he had not known
that the robbery was going to occur beforehand. According to Cotsworth and Mace,

5 Complaint at p. 29, paragraph 39.
6 Valentin v. Mazzuca, 2011 WL 65759 at *5-6.
7Valentin v. Mazzuca, 2011 WL 65759 at *5-6.
Id.
5

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 6 of 38

Plaintiff told them that a man named “Karl” had asked him to drive him to the Stereo
Shop to sell a stereo mixer, which Plaintiff did, and that while in the shop, Karl pulled out
a handgun and robbed the clerk.

Plaintiff stated that Karl then handed the stereo mixer

to him and stated that they needed to leave the shop, and that he drove Karl to his
house, whereupon Karl gave him the stereo mixer “for his problems.”9

Cotsworth and

Mace stated that when they showed Plaintiff a photograph of Arroyo, he admitted that
“Karl" was Arroyo, whom he knew from the neighborhood.10
Plaintiffs defense theory, as articulated to the trial court, was that insofar as it
may have appeared that he participated in the robbery, he “acted out of coercion or
duress.”11

However, the trial court refused to give a jury instruction concerning duress

since “[t]here was no evidence that [Plaintiff] was forced or coerced to participate in the
forcible theft.”12
The jury convicted Plaintiff of both counts of robbery.
While Plaintiff was in jail awaiting sentencing, he learned from another inmate
that Kemp “had a criminal record [including two] felony conviction[s] for Sexual Abuse in
the First Degree,” a misdemeanor conviction for Endangering the Welfare of a Child and
a misdemeanor conviction for Criminal Mischief in the Fourth Degree.13

Plaintiff, who

had previously been unaware of Kemp’s criminal history, subsequently filed a motion for

9 Id. at *6
10 Id.
11 Docket No. [#1-1] at p. 29; see also, Docket No. [#1] at p. 23 (“[M]y defense [was] that I had no intent
to participate in a robbery that I did not know would happen and was not the gunman.”).
12 Decision and Order denying Plaintiffs motion pursuant to CPL § 330.30, at p. 9.
13 Valentin v. Mazzuca, 2011 WL 65759 at *7; see also, Complaint [#1] at par. 17 (“I had to find out
myself about John Kemp’s criminal history from another inmate among hundreds that were incarcerated
in the Monroe County Jail.”).
6

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 7 of 38

a new trial pursuant to New York Criminal Procedure Law §330.30, on the grounds that
the prosecution had failed to disclose Kemp’s convictions. The prosecutor, Majchrzak,
responded that he had no knowledge of Kemp’s convictions prior to the trial, and that
defense counsel had never requested the information.

During oral argument on the

motion, the trial court was critical of Majchrzak’s failure to check Kemp’s criminal record,
as well as his decision to use Kemp as a witness, given his unreliability as a witness.
Majchrzak responded, in part, by noting that Kemp’s testimony had been just one
aspect of the proof against Plaintiff, and that defense counsel had impeached Kemp
“about as much as a person could be impeached.”14

Majchrzak further reminded the

court that he had attempted to introduce McLaurin’s testimony from the preliminary
hearing (which contradicted Kemp’s testimony concerning which of the robbers had the
gun), but the court had denied his request.

The court denied Plaintiffs motion, finding

that Majchrzak had no actual knowledge of Kemp’s criminal history during the trial.
The court sentenced Plaintiff to a determinate term of six years in prison.
Plaintiff then pursued a direct appeal in which he argued that the prosecution’s
failure to disclose Kemp’s criminal history violated Brady v. Maryland, 373 U.S. 83, 83
S.Ct. 1194 (1963) (“Brady’).

The New York State Supreme Court, Appellate Division

Fourth Department, agreed with Plaintiff that Majchrzak had suppressed the information
within the meaning of Brady, because although he may not have had actual knowledge
of Kemp's convictions, “the criminal record of the eyewitness was readily available to

14 See, Complaint at p. 29, paragraph 39 (Acknowledging that Plaintiffs defense counsel had “severely
impeached” Kemp.). Although, defense counsel never asked Kemp whether he had any convictions.
See, CPL 330.30 decision, attached to proposed Amended Complaint at p. 5 (“At no time was he [Kemp]
asked about any prior criminal conviction nor did he volunteer such information.”).
7

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 8 of 38

the prosecutor and certainly known to other individuals in his office who had recently
prosecuted the eyewitness, ”15

Nevertheless, the court found no Brady violation, and

denied Plaintiffs appeal, since there was “no ‘reasonable probability’ that the verdict
would have been different had the material been disclosed to the defense and
presented to the trier of fact.”16
Approximately five months after Plaintiffs direct appeal was denied, he filed a
collateral attack pursuant to New York Criminal Procedure Law § 440.10, on two
separate grounds. First, the petition alleged that a second Brady violation had occurred
prior to trial, when the prosecution had failed to disclose that Bower had been accused
of stealing from her employer, and that a warrant had been issued for her arrest, though
she had neither been arrested nor arraigned prior to Plaintiffs trial. (Bower later pled
guilty to disorderly conduct in satisfaction of the petit larceny charge).

Second, Plaintiff

alleged that there was newly-discovered evidence, consisting of an affidavit from
Richard Rolfe (“Rolfe"), the maternal grandfather of Plaintiffs child, indicating that
Bower had falsely testified at trial that she had observed stolen stereo equipment in
Plaintiffs Grand Am. According to Rolfe’s affidavit, he previously owned the Grand
Am, and the stereo equipment about which Bower had testified had been installed in the
car prior to the robbery. The trial court denied the CPL 440.10 motion without a hearing,
finding that no Brady violation had occurred with regard to the failure to disclose
Bower’s petit larceny charge, and that Rolfe’s affidavit concerning the stereo equipment

15 People v. Valentin, 767 N.Y.S.2d at 344.
16 Id.

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 9 of 38

did not amount to newly-discovered evidence.

The Appellate Division, Fourth

Department, subsequently denied Plaintiffs request for review.
On May 2, 2005, Plaintiff commenced a habeas corpus proceeding in this Court,
pursuant to 28 U.S.C. §2254.

United States Magistrate Judge Victor Bianchini,

adjudicating the petition by consent of the parties pursuant to 28 U.S.C. §636(c)(1),
construed the petition as raising the following three claims: 1) a “Brady violation with
regard to [the failure to disclose] Kemp[‘s convictions]”; 2) a “Brady violation with regard
to [the failure to disclose the fact that] Bower” had been accused of petit larceny; and 3)
a “due process violation based upon newly discovered evidence,” including “Bower’s
pending petit larceny complaint” and Rolfe’s affidavit, which “contradicted [Bower’s] trial
testimony” concerning the stereo system in the Grand Am.17
On January 10, 2011, Magistrate Judge Bianchini granted in part and denied in
part the habeas petition.

Judge Bianchini agreed with the Appellate Division, Fourth

Department, that Majchrzak had violated his obligation under Brady by failing to
discover and disclose Kemp’s criminal history, but rejected the Appellate Division’s
finding, that the suppressed information was not material, as being an objectively
unreasonable application of Supreme Court precedent to the facts of the case.

On that

point, Judge Bianchini held that a Brady violation can be material even if the defendant
still might have been convicted in the absence of the violation. Judge Bianchini

17 Valentin v. Mazzuca, 2011 WL 65759 at *12 (Citing to Valentin’s Habeas Petition, 05-CV-0298(VEB)
Docket No. [#1], paragraphs 22(A), 22(B), 22(C), 22(D) & 22(E)). In paragraph 22(E) of the petition,
Plaintiff argued that his “right to due process” was violated by “newly discovered evidence that
contradicted [the] trial testimony of witness (Sarah Bower),” referring to Rolfe’s affidavit concerning the
stereo system in the maroon Grand Am.
9

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 10 of 38

concluded that a Brady violation had occurred with regard to the failure to discover and
disclose Kemp’s convictions.
However, Judge Bianchini rejected the claim that Majchrzak had also violated
Brady by failing to disclose the petit larceny charge against Bower, since that
information was not “material” under Brady, inasmuch as under New York law Plaintiffs
defense attorney would not have been able to use the information to impeach Bower.
Further, Judge Bianchini rejected Plaintiffs due-process claim.18 In particular, Judge
Bianchini found that Rolfe’s affidavit did not contradict Bower’s trial testimony, and that
even if it did, no constitutional violation occurred.19
In sum, Judge Bianchini granted the habeas petition in part, based upon the
Brady violation involving the failure to disclose Kemp’s criminal history, but otherwise
rejected Plaintiffs claims on the merits. Judge Bianchini ordered, inter alia, that
Plaintiffs robbery convictions be “expunged,” due to the Brady violation involving Kemp.
Despite such ruling, the prosecution could have re-tried Plaintiff on the underlying

18 See, Habeas Petition, paragraph 22(E)) concerning newly-discovered evidence (Rolfe’s affidavit).
19 Valentin v. Mazzuca, 2011 WL 65759 at * 24 (“Rolfe, however, failed to establish that the speakers
which Bowers identified at trial were his and such a conclusion cannot be based upon the trial transcript.
Even if I were to accept Rolfe’s affidavit as true, it does not constitute newly discovered evidence
sufficient to warrant a new trial. Valentin’s ‘newly discovered evidence’ claim goes only to his guilt or
innocence, not to the constitutionality of his conviction. The Supreme Court has never held that newly
discovered evidence relevant to the guilt of a state prisoner is a stand-alone ground for relief on federal
habeas corpus.”). Later in the same decision, after finding that no constitutional violation had occurred
with regard to Rolfe’s affidavit, Judge Bianchini asserted that Valentin had “not claimed any constitutional
violation related to Rolfe’s affidavit.” That assertion, which this Court views as dicta, was inaccurate.
See, Habeas Petition at paragraph 22(E) expressly asserting “due process” claim related to newly
discovered evidence (i.e., Rolfe’s affidavit) which allegedly contradicted Bower’s trial testimony, and is
contradicted by Judge Bianchini’s own earlier description of the claims raised in the habeas petition
(Valentin v. Mazzuca, 2011 WL 65759 at *12, referring to the “due process violation” set forth in “Petition,
para. 22(E).” However, despite that stray misstatement, it remains clear both that Plaintiff asserted a
federal due process claim based upon Rolfe’s affidavit, and that Judge Bianchini rejected that claim on
the merits.
10

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 11 of 38

indictment. See, DiSimone v. Phillips, 518 F.3d 124 (2d Cir. 2008) (Holding that the
grant of habeas corpus based upon a Brady violation involving a failure to turn over
exculpatory evidence did not preclude a retrial of the defendant).20 However, the
prosecution apparently elected not to re-try Plaintiff, who, by that time, had already
served six years in prison.21

Plaintiff did not appeal any aspect of Judge Bianchini’s

ruling.
On May 3, 2011, Plaintiff commenced this action pursuant to 42 U.S.C. § 1983
proceeding pro se. The Complaint [#1] purports to assert claims against the City of
Rochester (“the City”), the Rochester Police Department (“the RPD”), former RPD
Police Chief James Sheppard (“Sheppard”), former RPD Police Chief David Moore
(“Moore”), Monroe County (“the County”), the Monroe County District Attorney’s Office
(“the DA’s Office”), former District Attorney Howard Relin (“Relin”), former District
Attorney Michael Green (“Green”), and various persons, employed by either the RPD or
the Monroe County District Attorney’s Office, who were involved in the investigation and
prosecution of the robbery charges against Plaintiff (including the District Attorney’s
Office’s employees who were merely assigned to locate McLaurin and Bower to testify
at trial)22, or who had information concerning Kemp’s criminal history or Bower’s petit-

20See also, United States v. Halloran, 821 F.3d 321, 342 (2d Cir. 2016) (“The remedy for a Brady violation
is vacatur of the judgment of conviction and a new trial in which the defendant now has the Brady material
available to her. Dismissal of the indictment is an extreme sanction and a drastic remedy, appropriate
only when it is otherwise impossible to restore a criminal defendant to the position that he would have
occupied vis-a-vis the prosecutor, or when there is a widespread or continuous pattern of prosecutorial
misconduct.”) (citations and internal quotation marks omitted), cert, denied, 137 S. Ct. 1118, 197 L. Ed.
2d 185 (2017), reh'g denied, 138 S. Ct. 306, 199 L. Ed. 2d 197 (2017)
21 According to the Complaint [#1], upon his convictions Plaintiff could have received a sentence of up to
25 years. Complaint [#1] at p. 26.
22 See, e.g., Complaint [#1] at paragraphs 27-30 (Asserting that because Caceci had been “assigned to
track down the whereabouts of Mr. McLaurin,” he should have known of McLaurin’s criminal history and
li

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 12 of 38

larcency charge. This group includes RPD Investigator Cotsworth, RPD Investigator
Mace, RPD Investigator Joseph Murphy (“Murphy”), RPD Investigator Paul Walther
(“Walther”), RPD Investigator Blaho (“Blaho”), RPD Officer Adorante (“Adorante”), RPD
Officer Holmes (“Holmes”), former RPD Officer Hoke (“Hoke”), former ADA Majchrzak,
ADA Patrick Fierro (“Fierro”), ADA John Munro (“Munro”), ADA John Marchioni
(“Marchioni”), DA’ Office Victim Witness Coordinator Wendy Sisca (“Sisca”) and DA’s
Office Investigator Casper Caceci (“Caceci”).
The 148-page Complaint focuses largely on ADA Majchrzak. In particular, the
Complaint alleges that Majchrzak suborned perjury by having Kemp testify, and that he
compounded the problem by vouching for Kemp’s credibility; that Majchrzak also
withheld Kemp’s criminal record, in violation of Brady, that Majchrzak further suborned
perjury from Bower, concerning the stereo equipment inside Plaintiffs car; that
Majchzak violated Brady by failing to disclose that Bower had been accused of petit
larceny; and that Majchrzak violated Brady by failing to disclose that McLaurin had a
criminal record. 23 The Complaint asserts that the cumulative effect of Majchrzak’s
actions deprived Plaintiff of due process, in violation of the Fifth and Fourteenth
Amendments, and constituted malicious prosecution under New York law.
Additionally, the Complaint argues that the remaining individual defendants
(other than Sheppard, Moore, Relin and Green) also violated Brady (and thereby
violated Plaintiffs due process rights) because they either knew of, or should have

should have advised Plaintiff of that criminal history.).
23 Complaint [#1] at paragraphs 2, 25-26 (Alleging that McLaurin had “two felony convictions for offenses
that involved drugs and alcohol.”).
12

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 13 of 38

known of, “the criminal records [sic] of John Kemp, Terrance McLaurin [or] Sarah
Bower” and failed to disclose that information to Plaintiff or to Majchrzak.24 Further, the
Complaint purports to allege that Sheppard, Moore, Relin and Green are personally
liable for the aforementioned alleged constitutional violations, either because they are
policy-makers or because Plaintiff wrote to them about the alleged due process
violations after the fact.

Moreover, the Complaint alleges that the City and the County

have Monell liability for the underlying constitutional violations, based upon a failure to
train.
On July 31, 2014, City Defendants filed their subject motion for summary
judgment. (Docket No. [#84]).25 As part of the application, City Defendants served an
Irby notice on the pro se Plaintiff as required by Local Rule 56.2.26 The application
contends that the Complaint fails to state any actionable claims against the City, the
RPD, Sheppard or Moore.

Specifically, movants point out that the Complaint contains

“no specific allegations against the City of Rochester or the Police Department,” and
that former Police Chiefs Sheppard and Moore were not in office at the relevant time.
As for the remaining City defendants (Cotsworth, Mace, Murphy, Walther, Blaho,
Adorante, Holmes and Hoke), the motion contends that they are entitled to summary
judgment for two reasons.

First, because the Complaint merely alleges that they were

24 Complaint [#1] at par. 9.
25 Prior to that, on September 23, 2013, Plaintiff filed a motion for summary judgment (Docket No. [#41]),
though he later withdraw that application. See, Docket No. [#148] (Scheduling Order noting that motion
was being withdrawn). Also, on June 15, 2014, the County Defendants filed a motion for judgment on
the pleadings [#68], which they later withdrew. Such motion had alleged that the County Defendants
were absolutely immune from suit and that the Complaint failed to state Monell claims or claims under 42
U.S.C. sections 1985 and 1986.
26 See, Docket No. [#84-1],
IB

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 14 of 38

negligent in failing to provide Brady material, which is insufficient to state a
constitutional claim. On that same point, movants state that even if the Complaint had
alleged that the officers deliberately or intentionally withheld Brady information, Plaintiff
has no evidence to support such an assertion. Second, and more importantly, movants
point out that the Brady obligation lies with prosecutors, not police officers, and that the
DA’s Office independently had access to all of the alleged Brady material, such as the
witnesses’ criminal histories.

In other words, City Defendants argue that they owed no

duty to Plaintiff under Brady, and that any failure to provide the alleged Brady
information to the prosecution did not amount to “suppression” or “withholding,” since
the prosecution had its own access to the same information.
In addition, City Defendants contend that no Brady violations occurred with
regard to Bower or McLaurin, since the allegedly-withheld information about them was
not “material” within the meaning of Brady. City movants point out that Bower’s petit
larceny charge was not material, since the information (involving a mere accusation)
could not have been used to impeach her at trial. Similarly, City Defendants maintain
that information concerning McLaurin’s prior convictions was not material for purposes
of Brady, since he did not testify at trial.27 In sum, City Defendants contend that the

27 See also, Decision and Order [#146] at p. 3 (United States Magistrate Judge Marian W. Payson
summarized the City defendants’ motion as follows: “City Defendants maintained that Valentin failed to
plead the requisite scienter to state a Section 1983 claim against the police officer defendants and that he
failed to plead that any conduct of the officers caused the Brady violation. (Docket # 84-12 at 7-12).
Additionally, the City Defendants contended that the Complaint failed to state a claim for negligent
training against former police chiefs David Moore (“Moore”) and James Sheppard (“Sheppard”) because
neither of them had served as police chief during the relevant period and, in any event, Valentin had only
identified a single Brady violation, which was an insufficient basis on which to state a negligent training
claim. (Id. at 12-13). Finally, the City Defendants maintained that Valentin had not adequately stated
Section 1985 and 1986 claims because he had not sufficiently alleged the elements of a conspiracy.2 (Id.
at 13). The district court likewise stayed this motion at Valentin’s request pending resolution of
14

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 15 of 38

allegedly-withheld information concerning McLaurin and Bower was not actually Brady
material at all.28
The Court held the City Defendants’ motion in abeyance pending the resolution
of various discovery-related motions that were then pending.29
On February 29, 2016, Plaintiff filed a cross-motion [#138][#139][#144] to amend
the Complaint.

The Proposed Amended Complaint (which has now ballooned to 197

pages, including 107 pages of exhibits) purports to do the following: 1) substitutes
former Rochester Police Chief Robert Duffy (“Duffy”) for former Police Chiefs Moore and
Sheppard;30 2) explicitly purports to add Monell failure-to-train claims against the City of
Rochester, Monroe County and Duffy; 3) adds additional allegations regarding the
individual defendants’ scienter; 4) adds additional allegations of conspiracy to bolster
the claims under 42 U.S.C. §§ 1985 & 1986; 5) adds two new defendants, DA’s Office
Investigator J. Rodriguez (“Rodriguez”) and RPD Investigator Gary Sullivan (“Sullivan”)
who allegedly violated Plaintiffs Brady rights in the same manner as the other police
officers (by failing to disclose the alleged Brady material); and 6) adds additional factual
allegations concerning RPD Officer Holmes and DA’s Office employees Sisca and
Caceci (who also allegedly failed to disclose Brady material).31 Additionally, the

outstanding discovery disputes. (Docket## 88, 91).
28 "[When] determining materiality, the suppressed evidence is considered collectively, not item by item.”
Skinner v. Duncan, No. 01 CIV.6656 DAB AJP, 2003 WL 21386032, at *23 (S.D.N.Y. June 17, 2003)
(quoting Kyles v. Whitley, 514 U.S. at 437, 115 S.Ct. at 1567, footnote and internal quotation marks
omitted).
29
See, Order [#91],
30 Plaintiff now admits that he sued Moore and Sheppard in error. See, Docket No. [#138] at p. 27,
paragraph 8. Accordingly, the Court will terminate that action as against Moore and Sheppard.
31 Docket No. [#146] at pp. 6-7.
15

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 16 of 38

proposed pleading expands the alleged Brady material that was not disclosed, to now
include Kemp’s mental health records and an alleged cooperation agreement32 between
the DA’s Office and Bower involving her petit larceny charge.
On March 29, 2016, County Defendants (the County, the DA’s Office, Relin,
Green, Majchrzak, Fierro, Munro, Marchioni, Sisca, Caceci and Rodriguez) filed their
opposition [#141] to the motion to amend.

County Defendants argue that the proposed

Amendment Complaint fails to comply with the technical requirements of the Federal
Rules of Civil Procedure, fails to comply with orders of this Court, fails to state a timely
claim as to Rodriguez, and is generally futile. With regard to futility, County Defendants
argue that all defendant members of the DA’s Office (including non-attorneys Sisca,
Caceci and Rodriguez) have absolute prosecutorial immunity from suit, and that the
pleading fails to plead Monell liability or liability under 42 U.S.C. sections 1985 or 1986.
On March 30, 2016, City Defendants also filed an opposition [#142] to the motion
to amend. City Defendants argue that the proposed amendment is untimely, that the
proposed claims against Sullivan, Holmes and Duffy are time barred, and that the
proposed amendment is futile because it fails to state actionable claims.
On April 7, 2016, Plaintiff filed a reply letter [#144],
On September 30, 2016, Magistrate Judge Payson issued a Decision and Order
[#146] making a limited ruling concerning Plaintiffs Motion to Amend [#138], Judge
Payson denied the request to add Sullivan as a defendant as untimely,33 but found that

32 This allegation is entirely speculative, as there is no evidence of such an agreement.
33 Docket No. [#146].
16

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 17 of 38

it was unclear whether the claims against Rodriguez were also time barred, or whether
equitable tolling might apply.

Magistrate Judge Payson further indicated that the

remaining aspects of Plaintiffs motion to amend are intertwined with the Defendants’
dispositive motions, and should therefore be addressed by this Court.
The undersigned subsequently issued various orders confirming that discovery
was closed, permitting the withdrawal of certain motions and the filing of new motions,
and setting a new briefing schedule for dispositive motions. See, Orders
[#147][#148][#150].
Pursuant to the Court’s Order [#150], on May 12, 2017, County Defendants
withdrew a prior dispositive motion and filed their subject motion for summary judgment
[#151]. As part of the application, County Defendants served an Irby notice on the pro
se Plaintiff as required by Local Rule 56.2.34 County Defendants make the following
arguments: 1) Plaintiff cannot show that any individual county defendant actually knew
about the alleged Brady material at the relevant time; 2) the prosecutors, as well as
Sisca, Caceci and Rodriguez, have absolute immunity for the alleged Brady violations in
any event; 3) Plaintiff cannot show that Relin or Green was personally involved in any
alleged constitutional violation, and in any event Relin and Green also have absolutely
immune from suit; 4) the Complaint fails to state a Monell claim against the County,
because the defendant DA’s acted on behalf of the State of New York, not Monroe
County, and because Plaintiff has not shown a pattern or practice of constitutional
violations in any event; 5) Prosecutors have 11th Amendment immunity, insofar as they

34 See, Docket No. [#152],
17

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 18 of 38

are being sued in their official capacities for money damages; 6) Sisca, Caceci and
Rodriguez have qualified immunity, even if they do not have absolute immunity; and 7)
the Complaint fails to state claims under 42 U.S.C. §§ 1985 or 1986.
On May 25, 2017, Plaintiff filed a document captioned as a Motion for Summary
Judgment [#153], which the Court treats as both a response to Defendants’ dispositive
motions and a cross-motion for summary judgment. See, Order [#156], The
submission argues that Plaintiff is entitled to summary judgment because he has
purportedly shown that it is “more than likely” that the defendants were aware of the
alleged Brady material, and that they had an obligation to disclose the information to
him.

The submission also asks the Court to revisit Magistrate Judge Payson’s ruling

denying Plaintiffs motion to amend with regard to Gary Sullivan.

Notably, Plaintiffs

response contends that there is only one possible disputed issue of fact in the case,
which is whether there was some type of “deal [between Bower and the DA’s office] for
favorable treatment in exchange for her perjured trial testimony,” which should have
been disclosed to him.35 However, Plaintiff offers no evidence of such an agreement,
and instead merely states that it is “more than likely possible” that there was such an
agreement.36
On June 15, 2017, County Defendants filed a reply [#154].
City Defendants also filed a reply [#155].

On June 23, 2017,

Both replies essentially reiterate the

arguments made in support of County Defendants’ and City Defendants’ respective

35 Docket No. [#153] at p. 8; see also, Docket No. [#153-1 at p. 4, paragraphs 4-5. (Alluding to a need to
conduct discovery on this point, by deposing Bower’s family members. However, discovery is closed.
See, e.g., Docket No. [#149]).
36 Docket No. [#153] at p. 8.
18

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 19 of 38

dispositive motions.37
DISCUSSION
In both his Complaint and Proposed Amended Complaint, Plaintiff purports to
state federal procedural due process claims under Section 1983, and malicious
prosecution claims under New York State law. The procedural due process claim and
malicious prosecution claim against Majchrzak involve alleged prosecutorial misconduct
by him, including subornation of perjury, improper vouching for witnesses and Brady
violations.
The procedural due process/Brady claims against Cotsworth, Mace, Murphy,
Walther, Blaho, Adorante, Holmes, Hoke, Fierro, Munro, Marchioni, Sisca, Caceci and
Rodriguez all involve their alleged failure to disclose Brady material.

In that regard,

Plaintiff maintains that any information concerning the criminal histories of Kemp, Bower
or McLaurin of which these defendants may have learned, or to which they may have
had access, in their capacities as employees of the RPD and/or DA’s Office, was Brady
material which they had a duty to disclose.

For example, Plaintiff alleges that because

RPD Officer Hoke investigated the petit larceny allegedly committed by Bower, he had a
Brady obligation to disclose the petit larceny accusation to Majchrzak or to defense
counsel.38 As another example, Plaintiff alleges that because RPD Officers Walther and1
Adorante had previously investigated a criminal complaint made by Bower, they should
have also been aware of the petit larceny charge against her, and therefore had a Brady

37 Additionally, City Defendants’ reply contends that there is no basis to reconsider Magistrate Judge
Payson’s ruling, denying Plaintiffs motion to amend as to Gary Sullivan.
38 Proposed Amended Complaint at pp. 37-38.
19

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 20 of 38

obligation to “come forward” with information about the petit larceny charge.39
The Brady/procedural due process claims against the City, RPD, Duffy, Monroe
County, DA’s Office, Relin and Green all involve the alleged failure to train employees
concerning their Brady obligations. The Brady/due process claim against Relin also
alleges that he failed to remedy the due process violation after being notified about it in
letters sent to him by Rolfe.
The pleadings also purport to assert conspiracy claims under 42 U.S.C. sections
1985 and 1986, apparently against all of the defendants, based upon bare allegations of
“cover up and conspiracy.”40

For example, the Proposed Amended Complaint states, in

conclusory fashion, that “it was more likely than not" that Majchrzak conspired with the
defendant police officers to withhold the alleged Brady material.41
For the reasons discussed below, the Court finds that none of Plaintiffs’ claims
have merit, and that Defendants are entitled to judgment as a matter of law.
Plaintiffs Pro Se Status
Plaintiff is proceeding pro se, and the Court has therefore reviewed his papers
“with special solicitude, mindful that they must be construed liberally and interpreted to
raise the strongest arguments that they suggest.” Cicio v. Wenderlich, 714 F. App'x 96
97 (2d Cir. Mar. 16, 2018) (citation and internal quotation marks omitted).
Rule 56

39 Proposed Amended Complaint at pp. 39-40.
40 Proposed Amended Complaint at p. 3, paragraph 3; see also, id. at pp. 10 (referring to “conspiracy”
and “cover up”); p. 16 (“it was more likely than not that a conspiracy of silence existed to suppress any
favorable Brady material”); p. 29 (“these Defendants, by remaining silent also participated in a cover up
and conspiracy with their failure to come forward and disclose Brady material.’’); id. at p. 42;
41 Proposed Amended Complaint at p. 8, paragraph f.
20

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 21 of 38

Defendants have moved, and Plaintiff has cross-moved, for summary judgment
pursuant to Fed. R. Civ. P. 56.

Summary judgment may not be granted unless "the

movant shows that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed.R.Civ.P. 56(a). A party seeking summary
judgment bears the burden of establishing that no genuine issue of material fact exists.
See Adickes v. S.H. Kress & Co., 398 U.S. 144, 157, 90 S.Ct. 1598, 26 L.Ed.2d 142
(1970). “[T]he movant must make a prima facie showing that the standard for obtaining
summary judgment has been satisfied.” 11 Moore's Federal Practice, § 56.11[1][a]
(Matthew Bender 3d ed.). “In moving for summary judgment against a party who will bear
the ultimate burden of proof at trial, the movant may satisfy this burden by pointing to an
absence of evidence to support an essential element of the nonmoving party's claim.”
Gummo v. Village of Depew, 75 F. 3d 98,107 (2d Cir.1996) (citing Celotex Corp. v. Catrett,
477 U.S. 317, 322-23, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986)), cert denied, 517 U.S.
1190 (1996).
The burden then shifts to the non-moving party to demonstrate “specific facts
showing that there is a genuine issue for trial.” Anderson v. Liberty Lobby, Inc., All U.S.
242, 250, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986). To do this, the non-moving party must
present evidence sufficient to support a jury verdict in its favor. Anderson, All U.S. at
249.

The underlying facts contained in affidavits, attached exhibits, and depositions

must be viewed in the light most favorable to the non-moving party. U.S. v. Diebold, Inc.
369 U.S. 654, 655, 82 S.Ct. 993, 8 L.Ed.2d 176 (1962). Summary judgment is appropriate
only where, “after drawing all reasonable inferences in favor of the party against whom

21

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 22 of 38

summary judgment is sought, no reasonable trier of fact could find in favor of the non­
moving party.” Leon v. Murphy, 988 F.2d 303, 308 (2d Cir. 1993).
As noted earlier, in responding to Defendants’ summary judgment motions, Plaintiff
has identified only one potential issue of fact, which is whether there was a cooperation
agreement between the Prosecution and Bower (requiring Bower to testify at Plaintiffs
trial in exchange for allowing her to plead guilty to disorderly conduct in satisfaction of the
petit larceny charge) which was not disclosed to him.

However, since Plaintiff has

provided no evidence of such an agreement, there are actually no triable issues of fact.
Accordingly, the Court may resolve the summary judgment motions as a matter of law.
In addition to responding to Defendants’ summary judgment motions, Plaintiff has
also filed a cross-motion to amend his Complaint. Motions to amend should be granted
“freely,” “when justice so requires,” but not when the proposed amendment would be
futile. Fed.R.Civ.P. 15(a)(2). Generally, a proposed amendment is not futile if it states a
plausible claim that would survive a motion to dismiss under Rule 12(b)(6).42 However,
when the motion to amend is made in response to a summary judgment motion, a different
futility standard is applied:
In such a situation, “even if the amended complaint would state a valid claim on its
face, the court may deny the amendment as futile when the evidence in support of
the plaintiffs proposed new claim creates no triable issue of fact and the defendant
would be entitled to judgment as a matter of law under Fed.R.Civ.P. 56(c).”

42See, e.g., Tannerite Sports, LLC v. NBCUniversal News Grp., a division of NBCUniversal Media, LLC,
864 F.3d 236, 252 (2d Cir. 2017) (“Proposed amendments are futile, and thus must be denied, if they
would fail to cure prior deficiencies or to state a claim under Rule 12(b)(6) of the Federal Rules of Civil
Procedure.”) (citation and internal quotation marks omitted).

22

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 23 of 38

Cecilio v. Kang, No. 02 CIV. 10010LAKGWG, 2004 WL 2035336, at *17 (S.D.N.Y. Sept.
14, 2004) (quoting Milanese v. Rust-Oleum Corp., 244 F.3d 104, 110 (2d Cir.2001))
report and recommendation adopted, No. 02 CIV. 10010LAK, 2004 WL 2158007
(S.D.N.Y. Sept. 27, 2004).
Malicious Prosecution
The Court liberally construes Plaintiffs papers as attempting to assert a state-law
malicious prosecution claim against Majchrzak, in addition to his claims under Section
1983.

However, it is clear that such a claim lacks merit, since the existence of

probable cause is fatal to claim for malicious prosecution.43 An indictment, such as the
one returned against Plaintiff, “creates a presumption of probable cause that may only
be rebutted by evidence that the indictment was procured by fraud, perjury, the
suppression of evidence or other police conduct undertaken in bad faith.” Savino v. City
of New York, 331 F.3d at 72 (citation omitted).

Here, there is no allegation, let alone

any proof, that the indictment against Plaintiff was obtained by fraud, perjury or police
misconduct, and the malicious prosecution claim therefore manifestly lacks merit.
Section 1983
Section 1983 “is not itself a source of a substantive rights, but merely provides a
method for vindication of federal rights elsewhere conferred.” Long v. Crowley, No.
09-CV-00456A(F), 2012 WL 1202181 (W.D.N.Y. Mar. 22, 2012) (citations and internal
quotation marks omitted). To establish individual liability under Section 1983, a plaintiff

43 See, Savino v. City of New York, 331 F.3d 63, 72 (2d Cir. 2003) ("[T]he existence of probable cause is
a complete defense to a claim of malicious prosecution in New York.”) (citation omitted).
23

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 24 of 38

must show that the defendant acted under color of state law and caused the plaintiff to
be deprived of a constitutional right. 42 U.S.C. § 1983.
A claim for the denial of federal due process rights, arising from a Brady violation
in an underlying criminal proceeding, is actionable under Section 1983:
A fair trial claim is a civil claim for violations of a criminal defendant's Fourteenth
Amendment due process rights.
. A fair trial claim may . . . arise where the
police or prosecutors withhold material exculpatory or impeaching evidence from
a defendant. The latter theory of liability is essentially a civil claim seeking
damages for a Brady violation.
Fappiano v. City of New York, 640 F. App'x 115, 118 (2d Cir. Mar. 7, 2016) (citations
omitted), cert, denied sub nom. Fappiano v. City of New York, N.Y., 137 S. Ct. 341, 196
L. Ed. 2d 263 (2016); see also, Dufort v. City of New York, 874 F.3d 338, 354-55 (2d
Cir. 2017) (“[A] defendant has a cognizable right to a fair trial, and may sue for damages
under § 1983 for Brady violations that lead to a distorted evidentiary record being
presented to the jury.’’) (citing Poventud v. City of New York, 750 F.3d 121, 132 (2d Cir.
2014) (en banc)).
The Bradv v. Maryland Standard
Plaintiffs due process claims are based almost exclusively upon alleged Brady
violations.44 The legal principles concerning Brady material are clear:
Under Brady v. Maryland and its progeny, state as well as federal prosecutors
must turn over exculpatory and impeachment evidence, whether or not requested
by the defense, where the evidence is material either to guilt or to punishment.
See, e.g., Stricklerv. Greene, 527 U.S. 263, 280, 119 S.Ct. 1936, 1948 (1999);
44 To the extent that the pleadings purport to assert due process claims against Majchrzak based upon
other types of prosecutorial misconduct, they fail to state actionable constitutional violations. As
discussed below, Majchrzak is also entitled to absolute immunity in any event. The due process claims
against the remaining defendants are all based upon alleged Brady violations.
24

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 25 of 38

United States v. Bagley, 473 U.S. 667, 676, 682, 105 S.Ct. 3375, 3380, 3383-84
(1985); United States v. Agurs, 427 U.S. 97, 107, 96 S.Ct. 2392, 2399 (1976);
Brady v. Maryland, 373 U.S. 83, 87, 83 S.Ct. 1194, 1196-97 (1963). The Brady
rule also encompasses evidence known only to the police: “In order to comply
with Brady, therefore, 'the individual prosecutor has a duty to learn of any
favorable evidence known to the others acting on the government's behalf in this
case, including the police.' ” Stricklerv. Greene, 527 U.S. at 281, 119 S.Ct. at
1948 (quoting Kyles v. Whitley, 514 U.S. 419, 437, 115 S.Ct. 1555, 1567 (1995)).
The Brady rule does not require a prosecutor to “deliver his entire file to defense
counsel,” but only to disclose those items which are material to the defendant's
guilt or punishment. United States v. Bagley, 473 U.S. at 675, 105 S.Ct. at 3380;
accord, e.g., Kyles v. Whitley, 514 U.S. at 437, 115 S.Ct. at 1567 (“We have
never held that the Constitution demands an open file policy.”); United States v.
Agurs, 427 U.S. at 108-09, 96 S.Ct. at 2400.
“There are three components of a true Brady violation: [1] The evidence at issue
must be favorable to the accused, either because it is exculpatory, or because it
is impeaching; [2] that evidence must have been suppressed by the State, either
willfully or inadvertently; and [3] prejudice must have ensued.” Stricklerv.
Greene, 527 U.S. at 281-82, 119 S.Ct. at 1948.
Jamison v. Griffin, No. 15CIV6716PKCAJP, 2016 WL 1698350, at *40^11 (S.D.N.Y.
Apr. 27, 2016) (footnotes omitted), report and recommendation adopted, No.
15CV6716PKCAJP, 2016 WL 4030929 (S.D.N.Y. July 27, 2016), appeal dismissed, No.
16-3156, 2017 WL 4124869 (2d Cir. Feb. 3, 2017).
The last quoted paragraph above indicates that a Brady violation requiring a new
criminal trial may be committed inadvertently. However, to recover money damages for
a Brady due process violation under Section 1983, the violation must have been
intentional. See, Fappiano v. City of New York, 640 F. App'x 115, 118 (2d Cir.) (“We
have never held that anything less than an intentional Brady violation establishes a §
1983 due process claim for damages[.]”), cert, denied sub nom. Fappiano v. City of New
25

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 26 of 38

York, N.Y., 137 S. Ct. 341, 196 L. Ed. 2d 263 (2016); see also, Bellamy v. City of New
York, No. 12CIV1025AMDPK, 2017 WL 2189528, at *36 (E.D.N.Y. May 17, 2017) (“The
Second Circuit has expressly declined to find that anything less than an intentional
Brady violation establishes a § 1983 due process claim for damages.”) (citing
Fappiano).
With regard to impeachment evidence, the Second Circuit has explained that not
all withheld evidence is “material” for purposes of Brady.
The evidence whose disclosure is required under Brady may consist not only of
exculpatory evidence but also of impeachment evidence, since the jury's
estimate of the truthfulness and reliability of a given witness may well be
determinative of guilt or innocence. In general, impeachment evidence has
been found to be material where the witness at issue supplied the only evidence
linking the defendants to the crime, or where the likely impact on the witness's
credibility would have undermined a critical element of the prosecution's case.
In contrast, a new trial is generally not required when the testimony of the
witness is corroborated by other testimony, or when the suppressed
impeachment evidence merely furnishes an additional basis on which to impeach
a witness whose credibility has already been shown to be questionable.
United States v. Payne, 63 F.3d 1200, 1210 (2d Cir. 1995) (emphasis added; citations
and internal quotation marks omitted).
The Non-Attorney Investigators Did Not Violate Brady
Plaintiff maintains that non-attorney defendants Cotsworth, Mace, Murphy,
Walther, Blaho, Adorante, Holmes, Hoke, Rodriguez, Sisca and Caceci violated Brady
by “failing to come forward” with information about Kemp, Bower and McLaurin, to which
they had access in their capacity as investigators.

Plaintiff asserts that these

investigators had an obligation under Brady to disclose the alleged Brady material “to

26

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 27 of 38

Majchrzak, his superiors or to [the] defense.”45 However, Defendants contend that
these police officers/investigators had no duty under Brady, and the Court agrees.
“[P]olice officers46 may be held liable for Brady violations when they intentionally
suppress exculpatory evidence.” Fappiano v. City of New York, 640 F. App'x at 118; see
also, Bermudez v. City of New York, 790 F.3d 368, 376 n. 4 (2d Cir. 2015) (“Police officers
can be held liable for Brady due process violations under § 1983 if they withhold
exculpatory evidence from prosecutors.”).

To establish liability against a police officer

for a Brady due process violation, the plaintiff must show that the officer intentionally
withheld information from prosecutors.
On the other hand, Police officers “satisfy their obligations under Brady when they
turn exculpatory evidence over to the prosecutors.” Walker v. City of New York, 974 F.2d
293, 299 (2d Cir. 1992).
Since it is the prosecutor’s duty to disclose Brady material to the defense, police
officers cannot be liable for a Brady violation where the prosecutor is aware of the
allegedly-withheld Brady material. See, e.g., Johnson v. Scheidler, No. 05-CV-74465,
2007 WL 1119876, at *10 (E.D. Mich. Apr. 16, 2007) (Brady due process claim could not
be maintained against police officer who omitted information from his police report, since
the prosecutor was made aware of the omitted information prior to trial).

Indeed, as

already discussed, a police officer is only liable for Brady violations under §1983 when he

45 See, e.g., Proposed Amended Complaint at p. 41, paragraph c.
46 Cotsworth, Mace, Murphy, Walther, Blaho, Adorante, Holmes, Hoke and Sullivan are police
investigators, and Plaintiff refers to Rodriguez, Caceci and Sisca as also being "the same as a Police
Investigator.” See, Proposed Amended Complaint at pp. 20, paragraph m; p. 22, paragraph b; p. 27,
paragraph j.
27

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 28 of 38

“intentionally suppresses] exculpatory evidence,” meaning that he hides the information,
which is known only to the police, from the prosecutor.

Clearly, for purposes of §1983,

a police officer cannot be said to have “suppressed” Brady material that is not in his sole
possession, and which is readily available to the prosecutor.
In the instant case, it is undisputed that the alleged Brady material was readily
available to the DA’s Office.

For example, when denying Plaintiffs direct appeal from

his conviction, the Appellate Division, Fourth Department, stated that although Majchrzak
did not have actual knowledge of Kemp’s convictions, Kemp’s “criminal record . . . was
readily available to the prosecutor and certainly known to other individuals in his office
who had recently prosecuted [him].”47

Plaintiff himself acknowledged this fact in his

motion to amend [#153], when he stated: “I respectfully contend it is an undisputed fact
that the criminal records of John Kemp were also in the possession and control of the
Rochester Police Department and the Monroe County District Attorney’s Office.”48 The
same is true for McLaurin’s criminal record, and also applies to the fact that Bower was
being prosecuted for petit larceny, since the Monroe County DA’s Office was prosecuting
her for that charge.
In New York, criminal history records or “rap sheets" are not compiled or
maintained by local police agencies, but, rather, they are compiled and maintained by the
New York Division of Criminal Justice Services (“DCJS”). See, e.g., Williams v. Erie
County Dist. Atty., 255 A.D.2d 863, 864, 682 N.Y.S.2d 316, 317-318 (4th Dept. 1998)

47 People v. Valentin, 767 N.Y.S.2d at 344.
48
Motion to Amend [#153] at p. 4, paragraph 14 (emphasis added). Additionally, in the Proposed
Amended Complaint, Plaintiff asserts, though in conclusory fashion, that the prosecution and
investigators were each aware of the Brady material, but conspired to hide it from Plaintiff.
28

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 29 of 38

(Pointing out that criminal rap sheets are compiled by DCJS).49 The Commissioner of
DCJS collects the rap sheet data from a variety of sources, including courts, police
agencies, probation agencies and anyone else “dealing with crimes or criminals.” See,
N.Y. Executive Law §§ 837(c) & 837-b (McKinney’s 2018).

Further, DCJS is required to

give “qualified agencies” electronic “access to information contained in the central data
facility, which shall include but not be limited to such information as criminal record.” N.Y.
Exec. Law § 837(6) (McKinney’s 2018).

Not surprisingly, the term “qualified agencies”

includes “district attorney’s offices.” N.Y. Executive Law § 835(9) (McKinney’s 2018).
Since the prosecutor Defendants in this action had complete access to the criminal
histories of McLaurin, Kemp and Bower, there is no merit to Plaintiffs contention that the
police/investigator Defendants had a Brady obligation to share their alleged knowledge
about those criminal histories with the prosecutors.

Prosecutors have the legal acumen

to know whether they need or should obtain a rap sheet for a particular witness.

It is not

the job of a police officer to provide the prosecutor with the rap sheet of every witness
who happens to be involved in a particular case, on the chance that such record might
qualify as Brady material. See, Walker v. City of New York, 974 F.2d at 299 (“It is
appropriate that the prosecutors, who possess the requisite legal acumen, be charged
with the task of determining which evidence constitutes Brady material that must be
disclosed to the defense. A rule requiring the police to make separate, often difficult, and
perhaps conflicting, disclosure decisions would create unnecessary confusion.”).

49See also Redd v. Leftenant, No. 16CV4919JFBSIL, 2017 WL 9487173, at *11 (E.D.N.Y. Aug. 9, 2017)
(“[Jjurisdiction over Plaintiffs state criminal record lies with the New York State Division of Criminal
Justice Services ('DCJS’)), report and recommendation adopted, No. 16CV4919JFBSIL, 2017 WL
3973926 (E.D.N.Y. Sept. 7, 2017), aff'd, 737 F. App'x603 (2d Cir. 2018).
29

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 30 of 38

In short, Plaintiff has neither alleged nor shown that the investigators hid the
alleged Brady material from prosecutors.
Furthermore, even assuming that Plaintiff could show that the investigators
actually “suppressed” or “withheld” the Brady material from prosecutors, he has not raised
any triable issue of fact as to whether they did so intentionally.

On this point, Plaintiff

seems to be unaware that intentional conduct is required to establish liability.

Indeed

even the Proposed Amended Complaint oddly asserts only that it was “more likely than
not [that the defendants] knew or should have known that their illegal actions of
committing one or more Brady violations by suppressing everything favorable to
[Plaintiffs] defense that was material to the outcome of [his] trial would lead to a violation
of [his] Constitutional due process civil rights[.]”50

Alternatively, Plaintiff alleges that

insofar as the investigators were unaware of the alleged Brady material, they were
“grossly incompetent.”51

To the extent that Plaintiff has alleged anything more than

negligence concerning the investigators, such allegations are merely bald assertions
unsupported by plausible factual averments or evidence.52
To the extent that Plaintiff is asserting that police-officer defendants can be liable
under Section 1983 for a Brady violation even where they did not intentionally “suppress”

50 See also, Proposed Amended Complaint at pp. 20-21 (Caceci “knew or should have known” of the
alleged Brady material); p. 23 (Rodriguez “knew or should have known”); pp. 26-28 (Sisca “knew or
should have known”); p. 32 (Holmes “knew or should have known”); p. 34 (Murphy and Mace “knew or
should have known”); p. 26 (Cotsworth “knew or should have known”); p. 38 (Hoke “knew or should have
known"); p. 40 (Walther and Adorante “knew or should have known”); p. 41 (Blaho “knew or should have
known”)
51 See, e.g., Proposed Amended Complaint at p. 27 (If Sisca was unaware of Kemp’s criminal history,
she was guilty of “gross incompetence.”).
52 See, e.g., Proposed Amended Complaint at p. 24 (Rodriguez “displayed a reckless disregard”).
BO

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 31 of 38

evidence that was unknown to prosecutors, and that they have an independent duty to
disclose Brady material that was already known or available to the prosecution, that
position is clearly untenable.

For example, the Seventh Circuit rejected a similar

argument, stating:
We agree with defendants that police need not spontaneously reveal to
prosecutors every tidbit that with the benefit of hindsight (and the context of other
evidence) could be said to assist defendants. . . . Just as prosecutors need not
automatically open their files to defendants, so police need not automatically
engage in debriefing sessions with prosecutors. ... If all the plaintiff can prove
at trial is that these officers failed to take the initiative in providing the prosecutors
with information that would have come out as soon as the prosecutors asked (or
as soon as defense counsel interviewed the police or questioned them on the
stand), then no due process violation by the police has been established. But if the
right characterization of the defendants' conduct is that they deliberately withheld
information, seeking to misdirect or mislead the prosecutors and the defense, then
there is a genuine constitutional problem.
Newsome v. McCabe, 260 F.3d 824, 825 (7th Cir. 2001) (emphasis added).

The instant

case involves the former situation, and not the latter.
Based upon the foregoing discussion, Plaintiff’s Brady due process claims against
Cotsworth, Mace, Murphy, Walther, Blaho, Adorante, Holmes, Hoke, Rodriguez, Sisca
and Caceci lack merit.

(The same would be true of Sullivan, even if Magistrate Judge

Payson had allowed him to be added as a defendant.) Those defendants are entitled to
summary judgment.

Additionally, since no constitutional violation was committed by these defendants,

31

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 32 of 38

there is no basis for supervisory liability or Monell liability against the City, RPD53 or Duffy.
See, e.g., Dilworth v. Goldberg, No. 10-CV-2224 JMF, 2014 WL 3798631, at *11
(S.D.N.Y. Aug. 1, 2014) (“In the absence of an underlying constitutional violation, a
plaintiff cannot state a claim for supervisory liability or a claim under Monell") (collecting
cases).
Plaintiff Has Not Shown That Prosecutors Intentionally Violated Brady,
And They Are Absolutely Immune From Suit In Any Event
Plaintiff contends that ADAs Majchrzak, Munro, Fierro and Marchioni violated his
constitutional rights by failing to disclose the alleged Brady material. Although Majchrzak
was the prosecutor assigned to Plaintiffs prosecution, Plaintiff contends that Munro was
personally involved in the alleged Brady/due process violation because he “covered for
Majchrzak” at the “Wade and Huntley hearing in October 2000,” and therefore “knew or
should have known” of Kemp’s criminal background and mental problems.54

Plaintiff

contends that Fierro is personally involved because he represented the DA’s Office in
opposing his direct appeal and CPL 440 motion, and therefore knew or should have
known, and had a duty to disclose, the fact that Bower had been charged with petit larceny
at the time of his trial.55

Plaintiff contends that Marchioni is personally involved because

he was the ADA assigned to prosecute Bower.56

53 The Court observes that the RPD should not be a defendant in this action in any event, since claims
against the RPD are redundant of claims against the City. See, Casaccia v. City of Rochester, No. 6:17
CV 06323 MAT, 2018 WL 324420, at *4 (W.D.N.Y. Jan. 8, 2018) (Telesca, J.) ("The City Defendants are
correct that the RPD, which is an administrative arm of the City [of Rochester] and lacks the capacity to
sue or be sued, is not a proper defendant in this matter.’’).
54 Proposed Amended Complaint at pp. 12-14.
55 Proposed Amended Complaint at p. 15.
56 Proposed Amended Complaint at pp. 15-16.
32

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 33 of 38

County Defendants maintain that these ADAs are entitled to summary judgment,
because Plaintiff has no evidence that they actually knew of the alleged Brady material,
and therefore no evidence that they intentionally failed to disclose such information.

The

Court agrees.
First and foremost, there is no evidence that Majchrzak actually knew about the
alleged Brady material. Although both the Appellate Division and Judge Bianchini found
that Majchrzak “suppressed” Kemp’s criminal convictions, neither court found that he did
so intentionally.

Indeed, Judge Bianchini found that Majchrzak “was wholly ignorant of

the mandates of Brady” insofar as it imposes a duty to investigate the criminal records of
prosecution witnesses, and “firmly [though incorrectly] believed that he had no due
process or ethical obligation to learn of impeachment material regarding the People’s
witnesses.” Valentin v. Mazzuca, 2011 WL 65759 at *18.

Nor has Plaintiff otherwise

shown that Majchrzak intentionally violated Brady. The same is even more true with
regard to Munro, who merely covered for Majchrzak at a pretrial hearing.

For example,

there is no evidence that Munro was aware of the alleged Brady material, or of what
disclosures Majchrzak might have made, or was planning to make, to the defense.
There is no indication that Munro was involved in responding to defense counsel’s pretrial
omnibus motion.

As for Marchioni, he obviously knew about Bower’s petit larceny

charge, since he was the prosecutor assigned to prosecute her, but Magistrate Bianchini
found, and this Court agrees, that the fact Bower had been accused of petit larceny was
not Brady material.57

For this same reason, Fierro could not have violated Brady, in

57 Based upon Judge Bianchini’s ruling on that point, Plaintiff is collaterally estopped from claiming
33

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 34 of 38

connection the direct appeal or 440 motion, by failing to disclose the “pending criminal
charge" against Bower.58
In opposition to County Defendants’ motion, Plaintiff baldly asserts only that it is
“more likely than not” that these ADAs intentionally violated Brady, which is insufficient to
raise a triable issue of fact.

Consequently, the ADAs are entitled to summary judgment.

Moreover, since Plaintiff has not demonstrated that these ADA’s committed an underlying
constitutional violation, there is no basis for supervisory liability or Monell liability against
the Monroe County, the DA’s Office, Relin or Green. See, Dilworth v. Goldberg, 2014 WL
3798631, at *11 (“In the absence of an underlying constitutional violation, a plaintiff cannot
state a claim for supervisory liability or a claim under Monell.”) (collecting cases).
Nor, even assuming an underlying violation, has Plaintiff shown a pattern of Brady
violations sufficient to support an Monell failure-to train claim. See, Greene v. City of New
York, No. 17-1920, — Fed.Appx. — , 2018 WL 3486787, at *3 (2d Cir. July 19, 2018) (“[A]
§ 1983 claim against a municipality is at its weakest where it turns on an alleged failure
to train or supervise.

This is in part because the alleged failure must amount to deliberate

indifference to the rights of citizens.

To prove deliberate indifference, a plaintiff must

prove that the municipality failed to take corrective measures despite having actual or

otherwise. See, e.g., Cerilli v. Rell, No. 3:08CV242 SRU, 2010 WL 3827960, at *4 (D. Conn. Sept. 23,
2010) (“The Second Circuit has applied collateral estoppel to bar relitigation in a federal section 1983
action of issues previously litigated in a state habeas proceeding.”) (citing Kulak v. City of New York, 88
F.3d 63, 71-72 (2d Cir.1996)). Plaintiffs contention that Judge Bianchi’s ruling in that regard was not
“definitive” lacks merit. See, Proposed Amended Complaint at p. 105.
58 See, Proposed Amended Complaint at p. 15, at paragraph 5(a) (“Fierro also failed to honor his ongoing
Brady obligation and disclose Bower’s pending criminal charge and conviction to my Apellate Attorney.”).
The fact that Bower eventually pled guilty to disorderly conduct in satisfaction of the petit larcency charge
is irrelevant to Plaintiff’s Brady claim.
34

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 35 of 38

constructive notice that a deficiency in its training or supervising program was causing
[municipal] employees to violate citizens’ constitutional rights.

This generally requires a

plaintiff to prove that the constitutional violation underlying his claim was preceded by a
pattern of similar constitutional violations. When, as here, the claimed violation concerns
the nondisclosure of evidence, the plaintiff must point to a pattern of prior violations
concerning nondisclosure of the same sort of evidence.”) (citations and internal quotation
marks omitted).

Here, as evidence of such a pattern, Plaintiff points only to his own case,

and to the court decision in Frank v. Relin, 1 F.3d 1317 (2d Cir. 1993), which, he
incorrectly maintains, indicates that there was a general attitude of deliberate indifference
toward Brady obligations within the Monroe County DA’s Office (in or about 1985).

Such

showing does not create a triable issue of fact on the failure-to-train claim.
Alternatively, the individual prosecutors are entitled to absolute immunity, since the
alleged constitutional violations would have occurred while they were performing the
advocacy function of deciding what to disclose pursuant to Brady. See, Warney v. Monroe
Cty., 587 F.3d 113, 125 (2d Cir. 2009) (“If the prosecutors had tested all the evidence,
and then sat on the exculpatory results for at least 72 days, they may well have violated
Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963); but they would be
absolutely immune from personal liability. The reason that is so is that the disclosure of
evidence to opposing counsel is an advocacy function.”) (citation omitted); see also, Kunz
v. Brazil!, No. 6:14-CV-1471 MAD, 2015 WL 792096, at *7 (N.D.N.Y. Feb. 25, 2015)
(“[FJailure to turn over Brady material, as alleged by Plaintiff, has been found to fall within
the type of prosecutorial functions entitled to absolute immunity.”); Ying Li v. City of New

35

I

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 36 of 38

York, 246 F. Supp. 3d 578, 640 (E.D.N.Y. 2017) (“[A] prosecutor is entitled to absolute
immunity even in the face of allegations of ‘deliberate withholding of exculpatory
information’ or ‘his knowing use of perjured testimony.’) (collecting cases).
As County Defendants also correctly point out, former District Attorneys Relin and
Green would also be entitled to such absolute immunity insofar as their alleged liability is
based upon their failure to train ADA’s concerning Brady obligations. See, Greene v. City
of New York, No. 08CV00243AMDCLP, 2017 WL 1030707, at *29 (E.D.N.Y. Mar. 15,
2017) (Indicating that pursuant to Van de Kamp v. Goldstein, 555 U.S. 335 (2009), a
District Attorney is entitled to absolute immunity as to claims involving “any role with
respect to training and supervision on Brady and other disclosure obligations”), affd, No.
17-1920, 2018 WL 3486787 (2d Cir. July 19, 2018).
For all of the foregoing reasons, County Defendants’ summary judgment motion is
granted as to the Section 1983 claims against Monroe County, the DA’s Office, Relin
Green, Majchrzak, Munro, Marchioni and Fierro.
The Claims Under 42 U.S.C. SS 1985 & 1986
As mentioned earlier, Plaintiff purports to state claims involving a “cover up and
conspiracy,” under 42 U.S.C. §§ 1985 and 1986.

Liberally construing the pleadings,

Plaintiff is first asserting a claim under Section 1985(3) “depriving persons of rights or
privileges,” and
[i]n order to make out [such a] claim, “the plaintiff must allege and prove four
elements: (1) a conspiracy; (2) for the purpose of depriving, either directly or
indirectly, any person or class of persons of the equal protection of the laws, or of
equal privileges and immunities under the laws; and (3) an act in furtherance of
the conspiracy; (4) whereby a person is either injured in his person or property or
36

L

Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 37 of 38

deprived of any right or privilege of a citizen of the United States.” United Bhd. Of
Carpenters v. Scott, 463 U.S. 825, 828-29, 103 S.Ct. 3352, 77 L.Ed.2d 1049
(1983). “[A] plaintiff must provide some factual basis supporting a meeting of the
minds, such that defendants entered into an agreement, express or tacit, to
achieve the unlawful end.” Webb v. Goord, 340 F.3d 105, 110 (2d Cir.2003).
Furthermore, the “conspiracy must also be motivated by some racial or perhaps
otherwise class-based, invidious discriminatory animus behind the conspirators'
action.” Britt v. Garcia, 457 F.3d 264, 270 n. 4 (2d Cir.2006) (internal quotation
marks omitted).
Robinson v. Allstate Ins. Co., 508 F. App'x 7, 9 (2d Cir. 2013) (footnote omitted).
Defendants contend that Plaintiff has failed to plead plausible claims under Section
1985, and the Court agrees.

For example, as noted earlier, Plaintiffs purported claim

consists of bare assertions that “it was more likely than not” that the Defendants conspired
with each other to withhold the alleged Brady material. The basis for this assertion is
apparently the fact that the various defendants worked with one another.

Plaintiff has

not pleaded any plausible factual basis for such a conspiracy against him, nor has he
shown that he could provide actual proof of such a conspiracy at trial.

Defendants are

therefore entitled to summary judgment on the Section 1985 claim.
Plaintiff also purports to assert a claim under 42 U.S.C. §1986, which “provides a
remedy for persons injured by the failure of those having authority to act to prevent the
wrongs specified in Section 1985.” Powell v. Kopman, 511 F. Supp. 700, 704 (S.D.N.Y.
1981).

However, a plaintiff who cannot state a claim under Section 1985 also cannot

state a claim under Section 1986. Id.] see also, Lopez v. "Director" of the Internal Revenue
Serv.'s (IRS) Ogden Utah Office, No. 16-CV-600 (VAB), 2017 WL 337978, at *7 (D. Conn.
Jan. 23, 2017) (“[A] plaintiff who wishes to state a claim under Section 1986 must first

37

K
Case 6:ll-cv-06238-CJS-MWP Document 157 Filed 10/24/18 Page 38 of 38

state a claim under 42 U.S.C. § 1985.”). Accordingly, Defendants are also entitled to
summary judgment on the Section 1986 claim.
CONCLUSION
City Defendants’ summary judgment motion [#84] and County Defendants’
summary judgment motion [#151] are granted, Plaintiffs motion to amend [#138] and
cross-motion for summary judgment [#153] are denied, and this entire action is dismissed
with prejudice.

The Court hereby certifies, pursuant to 28 U.S.C. § 1915(a)(3), that any

appeal from this Order would not be taken in good faith, and leave to appeal to the Court
of Appeals as a poor person is denied. Coppedge v. United States, 369 U.S. 438 (1962).
Further requests to proceed on appeal as a poor person should be directed, on motion,
to the United States Court of Appeals for the Second Circuit, in accordance with Rule 24
of the Federal Rules of Appellate Procedure.
SO ORDERED.
Dated:

Rochester, New York
October 24, 2018
ENTER:

Is/ Charles J. Siraqusa
CHARLES J. SIRAGUSA
United States District Judge

38

Case 6:ll-cv-06238-CJS-MWP Document 160 Filed 11/02/18 Page 1 of 2

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK
HECTOR VALENTIN,
Plaintiff,

ORDER

-v11-CV-6238 CJS
CITY OF ROCHESTER, et al„
Defendants.

On October 24, 2018, the Court issued a Decision and Order (Docket No. [#157])
granting the defendants’ dispositive motions and dismissing this action.
On October 31, 2018, the Court received a letter from Plaintiff, expressing his
disagreement with the Decision and Order and his intention to file an appeal to the Second
Circuit. Plaintiffs letter reiterates the opinion, previously expressed in his responses to
the defendants’ motions, that because another judge in this District granted his habeas
corpus petition vacating his conviction, he must be entitled to recover damages under
Section 1983. Plaintiffs belief is incorrect, as the Court explained in the Decision and
Order [#157],
In any event, Plaintiffs letter requests that this Court appoint him an attorney “to
assist [him] in filing a Pro Se appeal.” That request is denied. Moreover, as indicated
the Court certifies, pursuant to 28 U.S.C. § 1915(a)(3), that any appeal from this Order or
from the prior Decision and Order [#157] would not be taken in good faith, and leave to
appeal to the Court of Appeals as a poor person is denied. Coppedge v. United States,
369 U.S. 438 (1962). Further requests to proceed on appeal as a poor person should be
1

Case 6:ll-cv-06238-CJS-MWP Document 160 Filed 11/02/18 Page 2 of 2

directed, on motion, to the United States Court of Appeals for the Second Circuit, in
accordance with Rule 24 of the Federal Rules of Appellate Procedure.
SO ORDERED.
Dated:November 1, 2018
Rochester, New York
Is/ Charles J. Siraqusa
CHARLES J. SIRAGUSA
United States District Judge

2

Case 6:ll-cv-06238-CJS-MWP Document 164 Filed 11/30/18 Page 1 of 8

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK

o4

HECTOR VALENTIN,
Plaintiff,

ORDER

-v11-CV-6238 CJS
CITY OF ROCHESTER, et al„
Defendants.

INTRODUCTION
Now before the Court is essentially what is Plaintiffs second motion for
reconsideration of the Court’s Decision and Order granting summary judgment for
Defendants and dismissing his action.1 (Docket No. [#162]). The application is denied.
BACKGROUND
The facts of this action were set forth in a prior Decision and Order [#157] and
need not be repeated here.

It is sufficient to note that on May 3, 2011, Plaintiff

commenced this action pursuant to 42 U.S.C. § 1983, proceeding pro se.

Plaintiff

subsequently retained an attorney, Mark E. Lewis,2 however on May 23, 2013, Plaintiff
discharged Mr. Lewis and elected to again proceed pro se.3
After several years of discovery, the Defendants filed dispositive motions and
Plaintiff filed a cross-motion to amend the Complaint. On October 24, 2018, the Court

1 See, Decision and Order, Docket No. [#161].
2 See, Notice of Appearance date October 4, 2011. Docket No. [#11 ].
3 See, Docket No. [#30],
1

Case 6:ll-cv-06238-CJS-MWP Document 164 Filed 11/30/18 Page 2 of 8

issued a 38-page Decision and Order (Docket No. [#157]) granting the defendants’
dispositive motions and dismissing this action.
On October 31, 2018, the Court received a letter from Plaintiff, expressing his
disagreement with the Decision and Order [#157] and his intention to file an appeal to the
Second Circuit. Plaintiff also asked the Court to appoint him an attorney “to assist [him]
in filing a Pro Se appeal.” The Court denied that request.4
Plaintiff next sent a letter to the Court, received on November 13, 2018, asserting
that this Court had a “serious conflict of interest,” because the undersigned previously
served as a member of the Monroe County District Attorney’s Office between 1977 and
1992. Curiously, though, Plaintiff failed to indicate when he learned of that fact. Instead,
Plaintiff indicated only that he was “now raising” the issue, after the Court had dismissed
his action. On November 15, 2018, the Court issued an order indicating that to the extent
Plaintiffs letter was making any demand for relief, the demand was denied.
Now, Plaintiff has once again retained an attorney and has filed a motion pursuant
to Rules “57, 59(e)” of the Federal Rules of Civil Procedure, demanding the following
relief: “1) Recusal and vacating of Judgment of October 25th, 2018 and Decision and
Order of October 24th, 2018; alternatively 2) Reconsideration, reinstatement of complaint
declaratory and miscellaneous relief [sic].” The application is supported by 28 pages of
exhibits which are not “new” in any sense. Indeed, all of the exhibits date from 2001,
except for one dating from 2014. The supporting memorandum of law purports to raise
the following arguments: 1) the Court’s “impartiality” is in question, and the Court must
recuse itself and vacate its rulings because it was formerly a member of the Monroe

4 See, Docket No. [#160].
2

Case 6:ll-cv-06238-CJS-MWP Document 164 Filed 11/30/18 Page 3 of 8

County DA’s Office, which has “a widespread, continuous and long-standing police and
practice ... [of] ignoring its constitutional obligations pursuant to Brady v. Maryland, 373
U.S. 83 (1963); 2) the Court erred when it ruled that Brady violations can be bifurcated
into two categories - intentional and inadvertent - with only the former providing a basis
for a damages claim under 42 U.S.C. § 1983”; and 3) “the Court missed an important due
process issue plainly presented by the record: namely, the fundamental due process
violation stemming from the prosecutor’s undisputed use of inconsistent theories to obtain
the Plaintiff’s criminal conviction.”
DISCUSSION
As mentioned earlier Plaintiff purports to bring this motion pursuant to Rules 57
and 59(e) of the Federal Rules of Civil Procedure. See, Notice of Motion [#162] at p. 2.
Insofar as the application is based on Rule 57 it is denied.5 As for Rule 59(e),
[w]hile there are no formal guidelines, courts have recognized four basic grounds
on which a judgment may be altered or amended pursuant to Rule 59(e): the need
to prevent manifest injustice, the need to correct errors of law or fact, the availability
of new evidence, or an intervening change in controlling law. Reconsideration of
a court's prior order is an extraordinary remedy to be employed sparingly in the
interest of finality. In a motion for reconsideration, a party may not advance new
facts, issues or arguments not previously presented to the Court.
Maksymowicz v. Weisman & Calderon, LLP, No. 14 Civ. 1125(JGK), 2014 WL 1760319
at *1 (S.D.N.Y. Feb. 2, 2014) (citations and internal quotation marks omitted).
Applying this standard, the Court notes first that Plaintiffs third ground for relief —
that “the Court missed an important due process issue plainly presented by the record” concerns an argument not previously presented to the Court and is therefore not properly

5 The application under Rule 57 seeks a declaratory judgment on an issue that, as discussed below, was not previously raised and
which is therefore not properly considered on a motion for reconsideration. See, PI. Memo of Law, Docket No. [#162-1] at p. 14.
3

Case 6:ll-cv-06238-CJS-MWP Document 164 Filed 11/30/18 Page 4 of 8

the basis for a Rule 59(e) motion.
Plaintiffs second ground for relief is that the Court mis-applied the law concerning
§ 1983 actions seeking damages “against police officers”6 for Brady violations. In that
regard, Plaintiff asserts that an “inadvertent” Brady violation can support a claim for
damages under Section 1983, contrary to what the Court held. However, Plaintiff has not
shown that the Court’s ruling in that regard was erroneous. See, e.g., Bellamy v. City of
New York, No. 12CIV1025AMDPK, 2017 WL 2189528, at *36 (E.D.N.Y. May 17, 2017)
(“The Second Circuit has expressly declined to find that “anything less than an intentional
Brady violation establishes a § 1983 due process claim for damages.”) (quoting Fappiano
v. City of New York, 640 Fed.Appx. 115, 118 (2d Cir. Mar. 7, 2016)); see also, Kastle v.
Tompkins, No. 13CIV2256VBPED, 2017 WL 9534741, at *27 (S.D.N.Y. Mar. 13, 2017)
(“A classic Brady violation contains three elements: the evidence at issue must be
favorable to the accused, either because it is exculpatory, or because it is impeaching;
that evidence must have been suppressed by the State, either willfully or inadvertently,
and prejudice must have ensued.

. . . [However,] there is an important distinction

between ‘classic’ Brady claims and fair trial claims seeking damages for a Brady violation:
a plaintiff seeking to establish a fair trial claim sounding in a Brady violation must
demonstrate intentional suppression.”) (citing Fappiano] emphasis added, some citations
omitted), report and recommendation adopted in pertinent part, rejected in part on other
grounds, No. 13 CV 2256 (VB), 2017 WL 3206341 (S.D.N.Y. July 27, 2017).
Plaintiffs final argument is that the Court’s impartiality is in question because it
was formerly a member of the Monroe County District Attorney’s Office which has “a

6 See, PI. Memo of Law [#162-1] at p. 3.
4

Case 6:ll-cv-06238-CJS-MWP Document 164 Filed 11/30/18 Page 5 of 8

widespread, continuous and long-standing policy and practice ... [of] ignoring its
constitutional obligations pursuant to Brady v. Maryland, 373 U.S. 83 (1963).” However,
this recusal argument is untimely. The law in this regard is clear:
Recusal motions are committed to the sound discretion of the district court, and
[the United States Court of Appeals for the Second Circuit] will reverse a decision
denying such a motion only for abuse of discretion. The timeliness of a recusal
motion is a serious threshold question, and it is well-settled that a party must raise
its claim of a district court's disqualification at the earliest possible moment after
obtaining knowledge of facts demonstrating the basis for such a claim. In
considering the question of timeliness, a number of factors must be examined,
including whether: (1) the movant has participated in a substantial manner in trial
or pre-trial proceedings; (2) granting the motion would represent a waste of judicial
resources; (3) the motion was made after the entry of judgment; and (4) the movant
can demonstrate good cause for delay.
Weisshaus v. Fagan, 456 F. App'x 32, 34 (2d Cir. Jan. 19, 2012) (citations and internal
quotation marks omitted).
The fact that the undersigned was previously an Assistant Monroe County District
Attorney is well known to certain segments of the community due to my handling of many
high-profile murder trials between 1977 and 1992, especially the prosecution of Arthur
Shawcross. The Court has little doubt that Mr. Valentin was aware of that information
throughout this lawsuit. He does not claim otherwise. Despite that, Valentin never raised
any issue concerning the Court’s impartiality until now, which suggests that he intended
to make the argument only if the Court ruled against him. Obviously, such a strategy is
improper. See, e.g., In re Kansas Pub. Employees Ret. Sys., 85 F.3d 1353, 1360 (8th Cir.
1996) (“[MJotions to recuse should not be viewed as an additional arrow in the quiver of
advocates in the face of anticipated adverse rulings.”) (citation and internal quotation
marks omitted); see also, Newport News Holdings Corp. v. Virtual City Vision, Inc., 650
F.3d 423, 432-33 (4th Cir. 2011) (“The timing of VCV's [recusal] motion smacks of
5

Case 6:ll-cv-06238-CJS-MWP Document 164 Filed 11/30/18 Page 6 of 8

gamesmanship. Allowing such belated and seemingly tactical recusal motions would
permit a party to gather evidence of a judge's possible bias and then wait and see if the
proceedings went his way before using the information to seek recusal. The magistrate
judge's denial of the motion for recusal is therefore justified on timeliness grounds alone.”)
(citation omitted).
In sum, without offering any reason for the delay, Valentin waited more than seven
years after commencing this action, and until after the Court had issued its dispositive
ruling, to make the motion to recuse. Accordingly, this aspect of Plaintiffs motion is
denied on the basis of untimeliness alone. See, Weisshaus v. Fagan, 456 F. App'x at 34
(“Briefly stated, Weisshaus waited almost nineteen months after filing her complaint to file
the recusal motion, at which point the district court had already expended substantial
judicial resources overseeing and adjudicating Weisshaus's claims. . .. Although there
was no dispositive ruling as to Fagan at the time Weisshaus brought her recusal motion
the district court aptly noted that the motion came on the heels of its direction that
Weisshaus submit to a deposition, thus strongly suggesting that the motion was a mere
fall-back position in response to an adverse ruling. The district court, therefore, acted
well within its discretion in finding Weisshaus's recusal motion untimely.”).
In any event, Valentin also has not identified any meritorious reason why this Court
should recuse itself.7

Rather, Plaintiff merely contends that because the Court was

previously a member of the Monroe County District Attorney’s Office from 1977 until 1992,
it cannot be impartial in this case since it alleges deficiencies in “the policy and practices

7 "A judge is required to disqualify himself from 'any proceeding in which his impartiality might reasonably be questioned.' 28 U.S.C.
§ 455(a) (1994).” Fulton v. Robinson, 289 F.3d 188, 199 (2d Cir. 2002)
6

Case 6:ll-cv-06238-CJS-MWP Document 164 Filed 11/30/18 Page 7 of 8

of the Monroe County District Attorney’s Office, circa 2001.”8

On this point, Plaintiff

vaguely asserts only that “as a long time and high ranking official of that very office, [the
Court is] personally and professionally devoted to some of the named Defendants in this
case,” and that

“a Monell claim of this nature implies widespread and serious

malfeasance in an office, and by a supervisor, that are by common knowledge in this
District too familiar to this Court, notwithstanding the lapse in time between the events
complained of and the Court’s tenure in the office.”9

Whatever is meant by those

statements, such generalized and conclusory assertions fall far short of demonstrating
that the Court ought to recuse itself. See, United States v. Occhipinti, 851 F. Supp. 523,
525 (S.D.N.Y. 1993) (“When considering a recusal motion, this District has consistently
held that a judge must accept all factual allegations raised in the affidavit as true, even if
she knows them to be false. However, this does not prohibit the court from inquiring into
the legal sufficiency of the affidavit, and if the allegations are found insufficient as a matter
of law, the judge has a duty not to recuse herself. The affidavit must show a true personal
bias and allege specific facts as opposed to mere conclusions and generalizations.
Moreover, the judge is presumed to be impartial and a substantial burden is imposed on
the affiant to prove otherwise.”) (emphasis added, citations omitted).
CONCLUSION
Plaintiffs application [#162] is denied. The Court hereby certifies, pursuant to 28
U.S.C. § 1915(a)(3), that any appeal from this Order would not be taken in good faith and
leave to appeal to the Court of Appeals as a poor person is denied. Coppedge v. United

8 PI. Memo of Law [#162-1] at p. 5.
9 PI. Memo of Law [#162-1] at p. 6 (emphasis added).
7

Case 6:ll-cv-06238-CJS-MWP Document 164 Filed 11/30/18 Page 8 of 8

States, 369 U.S. 438 (1962). Further requests to proceed on appeal as a poor person
should be directed, on motion, to the United States Court of Appeals for the Second
Circuit, in accordance with Rule 24 of the Federal Rules of Appellate Procedure.
SO ORDERED.
Dated:November 30, 2018
Rochester, New York
Is/ Charles J. Siraqusa
CHARLES J. SIRAGUSA
United States District Judge

8

Case 18-3857, Document 81,01/16/2020, 2754141, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
16th day of January, two thousand twenty.
Hector L. Valentin,
ORDER
Plaintiff - Appellant,
Docket No. 18-3857

v.
City of Rochester, James Sheppard, David Moore, Former
Chief of Police, Rochester Police Department, Michael
Cotsworth, Rochester Police Department Officer /
Investigator, Dave Mace, Joseph Murphy, Paul Walther,
Blaho, Adorante, Holmes, Hoke, Former Rochester Police
Department Officer, Monroe County, Monroe County
District Attorney's Office, Michael Green, Monroe County
District Attorney, Howard Relin, Former Monroe County
District Attorney, Daniel Majchrzak, Former Monroe County
Assistant District Attorney, Patrick Fierro, Monroe County
Assistant District Attorney, John Munro, Monroe County
Assistant District Attorney, Wendy Sisca, Monroe County
District Attorney's Office Employee, Casper Caceci, Monroe
County District Attorney's Office Employee, John Marchioni,
Monroe County Assistant District Attorney,
Defendants - Cross - Claimants - Cross - Defendants Appellees.

Appellant Hector L. Valentin has filed a petition for rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en
banc.
IT IS HEREBY ORDERED that the petition is DENIED.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

Additional material
from this filing is
available in the
Clerk's Office.

